OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/EL
SALVADOR’S MUNICIPAL
COMPETITIVENESS PROJECT
AUDIT REPORT NO. 1-519-13-005-P
May 6, 2013




SAN SALVADOR, EL SALVADOR

Office of Inspector General


May 6, 2013

MEMORANDUM

TO:     	        USAID/El Salvador Mission Director, Kirk Dahlgren

FROM: 	          Regional Inspector General/San Salvador, Jon Chasson /s/

SUBJECT:	        Audit of USAID/El Salvador’s Municipal Competitiveness Project
                 (Report Number 1-519-13-005-P)

This memorandum transmits our final report on the subject audit. In finalizing the report, we
carefully considered your comments on the draft and have included them in their entirety in
Appendix II.

The report contains six recommendations to help USAID/El Salvador improve implementation of
its Municipal Competitiveness Project. Based on actions that the mission has taken or plans to
take, final action was achieved for one recommendation and a management decision has been
reached on five. Please provide the Audit Performance and Compliance Division in the USAID
Office of the Chief Financial Officer with the necessary documentation to achieve final action for
all the recommendations.

I want to express my appreciation for the cooperation and courtesies extended to us during this
audit.




U.S. Agency for International Development
Embajada Americana
Urb. y Blvd Santa Elena
Antiguo Cuscatlan, Depto. La Libertad
San Salvador, El Salvador
http://oig.usaid.gov
CONTENTS

Summary of Results ................................................................................................................... 1 


Audit Findings............................................................................................................................. 4 


     Performance Indicators Did Not Measure Promotion of Investment and Trade...................... 4 


     Performance Data Did Not Measure Economic Growth and Employment Accurately ............ 5 


     Project Monitoring and Oversight Were Weak ........................................................................ 5 


Evaluation of Management Comments..................................................................................... 9 


Appendix I—Scope and Methodology .................................................................................... 10 


Appendix II—Management Comments ................................................................................... 12 

SUMMARY OF RESULTS 

El Salvador, the smallest country in Central America, is divided into 262 municipalities.
According to USAID/El Salvador, most of them have moderate to high levels of poverty and
primarily depend on the central government for support. To change these conditions,
municipalities need to create a more favorable business environment that will attract private
investment, generate employment, and create a better standard of living throughout the country.
The lack of a favorable business environment was highlighted recently in a World Bank report,
which ranked El Salvador as 113th out of 185 countries when evaluated for ease of doing
business.1

To help address this problem, on September 23, 2009, USAID/El Salvador signed a $9.2 million
contract with Research Triangle Institute (RTI) to implement the Municipal Competitiveness
Project. USAID/El Salvador subsequently increased the award to $11.2 million, with an
estimated completion date of March 31, 2014. According to the contract, the project’s main
objective is to strengthen Salvadoran municipalities’ competitiveness, thus resulting in stronger
municipalities that generate more income, create more employment, and promote private
investment and trade. As of December 31, 2012, cumulative obligations and expenditures for
the project totaled $7.9 million and $4.1 million, respectively.

The purpose of this audit was to determine whether USAID/El Salvador’s Municipal
Competitiveness Project was achieving its main objective of strengthening Salvadoran
municipalities’ competitiveness.

The audit found that the project was implementing activities in 50 municipalities throughout El
Salvador to help the municipalities be more competitive. During site visits to 10 of them, we
confirmed that the project had improved cooperation between the public and private sectors and
eliminated some of the mistrust that traditionally has affected their relationship. Through
December 31, 2012, the project had:

	 Conducted trade and investment training for more than 2,500 public officials and private
   sector representatives from all 50 municipalities.

	 Organized competitiveness committees with municipal and private sector representatives in
   46 of the 50 municipalities.

	 Developed municipal competitiveness plans for 48 of the 50 municipalities.

	 Opened 15 “one-stop” customer service windows in seven of the eight targeted
   municipalities, improving the efficiency of administrative procedures.

	 Finalized the 2011 Municipal Competitiveness Index.2


1
    Doing Business 2013: Smarter Regulations for Small and Medium-Size Enterprises. Washington, DC:
    World Bank Group, 2013.
2
    The Municipal Competitiveness Index’s primary task was to gather baseline data on the business
    environment in El Salvador, with the goal of identifying constraints on private sector development.

                                                                                                     1
However, despite the implementation of these activities, the audit noted several problems.

	 Performance indicators did not measure the project’s promotion of investment and trade
   (page 4). The audit could not determine whether the project was promoting investment and
   trade at the municipal level successfully because USAID/El Salvador did not establish a
   specific indicator to measure progress toward this important objective.

	 Performance data did not measure economic growth and employment accurately (page 5).
   The mission reported performance data that did not identify the businesses and jobs created
   as a direct consequence of the project, and therefore it did not measure the project’s impact
   on economic growth and employment accurately.

	 Project monitoring and oversight was weak (page 5). The audit identified ways to improve
   monitoring and oversight related to site visits, participant training, gender analysis, and
   environmental compliance.

Furthermore, the audit found evidence that the project may not achieve its goal of being
sustainable. The 2012 work plan included a core technical assistance program designed to
support activities prioritized in the municipal competitiveness plans produced by each
municipality. However, the plans do not include an accompanying budget or assignment of roles
and responsibilities for their execution. In addition, with only 1 year remaining in the project, the
municipalities have yet to implement their plans. As a result, the project may not achieve its
long-term sustainability goals once USAID/El Salvador support ends next year. The mission has
agreed that these are concerns and will examine them during an evaluation scheduled for
October 2013.

In consideration of our audit findings, we recommend that USAID/El Salvador:

1. 	Document steps taken to develop a performance indicator that measures whether the
    project is making progress in promoting investment and trade (page 4).

2. 	 Establish a process to differentiate new firms and jobs from those that are newly registered
     but have been operating informally, and collect additional data that more accurately
     measure economic growth and employment directly resulting from the project (page 5).

3. 	 Prepare a schedule for conducting regular site visits to the participating municipalities over
     the remaining contract period, and document the visits in accordance with Mission
     Order 750 (page 8).

4. 	 Obtain access to the Training Results and Information Network, and properly monitor and
     report on in-country training programs and participants in accordance with Automated
     Directives System 253 and Mission Order 745 (page 8).

5. 	 Obtain the baseline assessment of business ownership and the gender integration plan from
     Research Triangle Institute, and implement the actions presented in the gender analysis
     (page 8).

6. 	 Amend the contract with Research Triangle Institute to include environmental compliance
     language that will make the environmental mitigation plan mandatory if activating conditions
     are met (page 8).


                                                                                                   2
Detailed findings follow. Appendix I describes the audit scope and methodology. Our evaluation
of USAID/El Salvador’s management comments will appear on page 9, and the mission’s
comments will appear in Appendix ll.




                                                                                            3
AUDIT FINDINGS 

Performance Indicators Did Not
Measure Promotion of Investment
and Trade
According to USAID’s Automated Directives System (ADS) Section 203.3.2, performance
indicators are “the basis for observing progress and measuring actual results compared to
expected results.” USAID guidance, TIPS Number 6, “Performance Monitoring and Evaluation,”
states, “Performance indicators are measures that describe how well a program is achieving its
objectives, and indicators tell specifically what to measure to determine whether the objective
has been achieved.” The guidance also notes, “Performance indicators define the data to be
collected to measure progress, allowing results achieved to be compared with planned results.”

The Municipal Competitiveness Project, according to the awarding document, “strives to build
stronger municipalities that will generate more income, create more employment, and promote
private investment and trade.” USAID/El Salvador developed two performance indicators to
measure these results: Number of new firms registered in assisted municipalities and Number of
new jobs created as a result of USAID-funded assistance. However, USAID/El Salvador did not
establish specific performance indicators to measure whether the project helps promote private
investment and trade—two crucial elements of the overall objective.

USAID/El Salvador agreed that developing a performance indicator that measures the project’s
progress for promoting investment and trade is important. USAID/El Salvador led an effort to
evaluate statistical data resources to measure investment. The effort included consultations with
experts from subcontractor Escuela Superior de Economía y Negocios (ESEN) and a former
vice minister of economy. However, since they could not identify readily available sources for
municipal data, and since they considered that the effects on trade and investment were indirect
and long-term, they did not develop specific indicators for these goals.

Despite these challenges, indicators to track progress toward the goals are needed to evaluate
the program’s success. While precise data at the municipal level may not be readily available,
the mission could use data from other sources to develop at least indirect indicators of progress.
For example, the Salvadoran Ministry of Economics tracks total revenues (taxes, licenses, and
fees) and total expenditures for each municipality—data that might reflect changes in
investment and trade. In addition, USAID/El Salvador could expand its data collection efforts to
include specific questions for municipalities and participating businesses about investment and
trade.

Without a performance indicator that measures progress in promoting investment and trade,
USAID/El Salvador is missing critical information for making decisions about the project and for
verifying that the overall objective is being achieved. Therefore, we make the following
recommendation.

   Recommendation 1. We recommend that USAID/El Salvador document steps taken to
   develop a performance indicator that measures whether the Municipal Competitiveness
   Project is making progress in promoting investment and trade.



                                                                                                4
Performance Data Did Not Measure
Economic Growth and Employment
Accurately
ADS 203.3.11.1 states, “Missions can use a variety of data sources for their performance
monitoring needs.” To be useful for performance monitoring and credible for reporting, however,
“The data should clearly and adequately represent the intended result.”

One of the expected results of the project is to increase economic growth and employment by
registering 200 new businesses and creating 5,000 jobs at the municipal level over a period of
approximately 5 years. From the project’s inception in September 2009 through December 31,
2012, USAID/El Salvador reported the registration of 906 new businesses and creation of
2,233 new jobs, far exceeding targets for that period.

However, the reported results may be overstated because USAID/El Salvador was reporting
every new business registered and every new job created in the 50 municipalities without
differentiating whether they were created because of project activities. Also, according to the
mission, many of the reported new businesses and jobs had existed informally before the
project started. While formal registration of these businesses and jobs helps municipalities track,
tax, and regulate economic activity, it is not accurate to consider them as indicators of economic
growth and employment resulting from the project.

RTI officials said data were not collected to differentiate a new firm or job from ones that existed
previously in the informal sector because they thought people would be reluctant to self-report
for fear of paying penalties or back taxes. This was a valid concern. However, representatives of
the ten municipalities visited said the information could be collected in a manner that would
minimize the problem. They also noted that most municipalities are small enough that local
officials can readily identify any business that has been operating informally.

USAID/EL Salvador needs accurate, reliable data to determine project effectiveness; without
them, the project’s accomplishments and impact cannot be determined. Also, reporting results
that do not directly represent the intended outcome could erode confidence in the data or lead
to making wrong decisions. Therefore, we make the following recommendation.

   Recommendation 2. We recommend that USAID/El Salvador establish a process to
   differentiate new firms and jobs from those that are newly registered but have been
   operating informally, and collect additional data that would more accurately measure
   economic growth and employment directly resulting from the Municipal Competitiveness
   Project.

Project Monitoring and Oversight
Were Weak
According to ADS 202.3.6, monitoring the quality and timeliness of outputs produced by
implementing partners is a “major task of USAID officials.” Also, according to ADS 200.3.5.5,
missions should track whether projects achieve intended results by (1) planning how they will
systematically monitor and evaluate progress, (2) regularly monitoring the achievements of
programs and projects, and (3) collecting and analyzing performance information to track
progress toward planned outcomes. Missions should use this performance information along


                                                                                                  5
with evaluation findings to influence decision making and resource allocation, and also
communicate the results to inform stakeholders and advance organizational learning.

The audit determined that USAID/El Salvador’s monitoring and evaluation were weak in several
areas. As detailed below, the mission did not conduct site visits, did not properly monitor
participant training, did not fully implement a gender analysis, and did not include environmental
compliance language in the contract.

USAID/El Salvador Did Not Conduct Site Visits. ADS 203.3.2.1 states that part of activity
oversight is to conduct site visits in accordance with USAID policy. USAID/El Salvador issued a
mission order on February 4, 2008, requiring periodic project site visits, preparation of brief
reports highlighting observations and findings using a standard template, and filing a copy of
each report in the official project files.

Furthermore, according to ADS 202.3.8.2, “The person most knowledgeable about an activity
should be assigned responsibility for providing administrative approvals for payments based on
knowledge gained through contractor reports and site visits.” USAID’s administrative approval
form and checklist stipulates, “The approving officer must indicate both the inspection method
and the basis of his/her approval.” With regard to the inspection method, the form should be
accompanied by a statement, if applicable, explaining why the official approving payment could
not visit the work site.

While the mission contracting officer’s representative met RTI regularly in San Salvador and
visited some municipalities to attend certain events, mission officials had not conducted site
visits to any of the 50 municipalities to monitor implementation of the project, nor had they met
with the two municipal associations receiving USAID-funded assistance. With the exception of
San Salvador, representatives of the municipalities we visited did not recall having any contact
with USAID/El Salvador during implementation of the project. The mission approved vouchers
submitted by implementing partners primarily based on meetings held at RTI’s office in San
Salvador rather than any field visits or inspections at activity sites. These approvals did not
include statements explaining why the mission could not visit the municipalities.

According to the mission, competing priorities and lack of resources prevented the site visits.
Nevertheless, without regular site visits, the mission cannot determine whether the project is
progressing as planned, or make decisions based on the current situation in the field.
Furthermore, the mission cannot approve payments properly to RTI if it cannot verify the
partner’s accomplishments.

USAID/El Salvador Did Not Monitor Participant Training Properly. ADS 253.3.4.5 states
that USAID missions “must monitor and report on in-country programs and participants to
ensure that problems are identified and resolved quickly and that training is successful.” In
addition, USAID missions must enter data in the Training Results and Information Network
(TraiNet)3 for any in-country training programs or subprograms lasting at least 2 consecutive
days or 16 hours. Finally, USAID missions must retain paper copies of training requests, such
as nomination/participant selection documentation, training implementation plans, and
participant tracking documentation, if applicable.

In keeping with these policies, USAID/El Salvador issued Mission Order 745 dated July 14,
2011, outlining policies and procedures for tracking training costs.

3
    TraiNet is the official USAID Web-based training management system database.

                                                                                                6
It reported that more than 2,500 participants attended trade and investment training from project
inception through December 31, 2012. However, USAID/El Salvador was not monitoring the
information that RTI entered into TraiNet to make sure any potential problems were identified
and resolved quickly, and that the training was successful. In addition, the mission did not track
the actual training costs or maintain the required documentation in project files.

Mission officials said they only reviewed participant attendance lists because they relied
primarily on RTI to enter the training information and monitor the data in TraiNet. Although the
contract states that RTI is responsible for complying with ADS 253, this does not relieve
USAID/El Salvador of its responsibility to monitor the implementing partner’s compliance with
ADS 253 and Mission Order 745. Monitoring training information to determine the effectiveness
of the training is critical to program success.

USAID/El Salvador Did Not Fully Implement a Gender Analysis. According to
ADS 201.3.9.3(a), a gender analysis that examines “the differences between the roles that
women and men play in communities and societies, the different levels of power they hold, their
differing needs, constraints, and opportunities, and the impact of these differences on their lives”
is mandatory for USAID projects.

The implementing partner prepared a gender analysis listing a number of steps that should
contribute to achieving gender integration. Specifically, the analysis listed the following actions
to be incorporated in the management and implementation of the project:

	 A baseline assessment of business ownership and participation in municipal decision
   making in each participating municipality.

	 Identification and outreach to women’s groups in El Salvador.

	 Increase in focus on gender and collection of gender data.

	 Use of gender indicators in the monitoring and evaluation plan and implementation.

	 Creation of a project gender integration plan.

However, RTI has not developed a baseline assessment of business ownership and
participation or produced an approved gender integration plan as required by the gender
analysis.

According to the mission, obtaining the baseline assessment and gender integration plan had
not been a priority because staff members were dedicated to other project issues. However, by
not fully implementing the gender analysis, the project is not contributing to gender equality to
its full potential.

USAID/El Salvador Did Not Include Environmental Compliance Language in the Contract.
The Code of Federal Regulations, Title 22, Part 216 (22 CFR 216), requires completion of an
initial environmental examination (IEE). This examination is conducted to determine whether a
proposed project has potential to hurt the environment. Additionally, USAID/El Salvador’s
regional environmental adviser issued guidance in 2009 requiring contracts to include standard
provisions concerning environmental compliance.



                                                                                                  7
The audit found that USAID/El Salvador had complied with 22 CFR 216 and completed the
required IEE. However, we noted that the IEE contained a requirement that the contractor
prepare an environmental mitigation plan (EMP) related to the possibility of restoring public
areas and sports facilities in the municipalities, should those activities be implemented. The
EMP is mandatory only when the restorations are definitely going to be built, and this
requirement should be stated in the contract with RTI.

Mission officials said they did not include the regional environmental adviser’s standard
provisions because they were not aware of them. Due to this oversight, the contract does not
make it mandatory for RTI to prepare an EMP, even if its activating conditions are met.
Mitigation measures are important in preventing or reducing possible adverse environmental
impacts.

To address the monitoring and oversight issues discussed above, we make the following
recommendations.

   Recommendation 3. We recommend that USAID/El Salvador prepare a schedule and
   conduct regular site visits to the participating municipalities over the remaining contract
   period, and document the visits in accordance with Mission Order 750.

   Recommendation 4. We recommend that USAID/El Salvador obtain access to the
   Training Results and Information Network, and properly monitor and report on in-country
   training programs and participants in accordance with USAID’s Automated Directives
   System 253 and Mission Order 745.

   Recommendation 5. We recommend that USAID/El Salvador obtain the baseline
   assessment of business ownership and the gender integration plan from Research
   Triangle Institute, and implement the actions presented in the gender analysis.

   Recommendation 6. We recommend that USAID/El Salvador amend the contract with
   Research Triangle Institute to include environmental compliance language that will make
   the environmental mitigation plan mandatory if its activating conditions are met.




                                                                                                 8
EVALUATION OF MANAGEMENT
COMMENTS
In its response to the draft report, USAID/El Salvador agreed with all six recommendations.
Based on our evaluation of management comments on our draft report, we acknowledge that
management decisions have been reached on five of the six recommendations and final action
has been taken on one. Our detailed evaluation of management comments follows.

Recommendation 1. Mission officials have taken numerous steps in the recent months to work
with RTI and government officials to develop a performance indicator that measures the
project’s progress toward promoting investment and trade. Unfortunately, no options are viable,
and the mission has determined that it is not possible to develop such a performance indicator
at this time. Based on the mission’s documented steps taken to develop a performance
indicator, we acknowledge that final action has been taken on this recommendation.

Recommendation 2. Mission officials plan to revise the monitoring and evaluation plan to
differentiate the new firms and new jobs from those that have been operating informally. They
will also instruct RTI to add a question to the data sheets used by the one-stop windows in the
municipalities to document whether the firm is registering as a result of the new, simplified
registration process. The target completion date for these actions is June 30, 2013. Accordingly,
we acknowledge that a management decision has been reached on this recommendation.

Recommendation 3. Mission officials will prepare a schedule and conduct regular site visits to
participating municipalities over the remaining contract period, and document the site visits in
accordance with Mission Order 750. The schedule will be prepared by June 30, 2013.
Accordingly, we acknowledge that a management decision has been reached on this
recommendation.

Recommendation 4. Mission officials will (1) revise Mission Order No. 745 to clarify roles and
responsibilities within the mission to monitor and report on in-country training programs and
participants, and (2) organize training for agreement officer’s/contracting officer’s
representatives to ensure uniform understanding and application of the requirements. The target
completion date for these actions is August 15, 2013. Accordingly, we acknowledge that a
management decision has been reached on this recommendation.

Recommendation 5. The mission received the revised gender integration plan from RTI on
April 11, 2013. Mission officials will get the baseline assessment for 2011 and will monitor the
implementation of the gender assessment analysis through quarterly reports presented by RTI.
The target completion date for these actions is November 30, 2013. Accordingly, we
acknowledge that a management decision has been reached on this recommendation.

Recommendation 6. Mission officials will amend the contract to include environmental
compliance language to make the environmental mitigation plan mandatory. The target
completion date for this action is May 31, 2013. Accordingly, we acknowledge that a
management decision has been reached on this recommendation.




                                                                                               9
                                                                                     Appendix I



SCOPE AND METHODOLOGY
Scope
We conducted this audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions in accordance with our
audit objective. We believe that the evidence obtained provides that reasonable basis.

The purpose of this audit was to determine whether USAID/El Salvador’s Municipal
Competitiveness Project was achieving its main objective of strengthening Salvadoran
municipalities’ competitiveness.

In planning and performing the audit, the audit team assessed significant management controls
the mission used to manage the project and ensure that it provided adequate oversight. The
team reviewed USAID/El Salvador’s operating reports, the fiscal year 2012 annual self-
assessment of management controls (which the mission is required to perform to comply with
the Federal Managers’ Financial Integrity Act), environmental compliance due diligence, award
and modification requirements, the contracting officer representative’s designation letter, and
other reports.

On September 23, 2009, USAID/El Salvador signed a $9.2 million contract with RTI to
implement the Municipal Competitiveness Project. USAID/El Salvador subsequently increased
the award to $11.2 million with an estimated completion date of March 31, 2014. As of
December 31, 2012, cumulative obligations and expenditures for the project totaled $7.9 million
and $4.1 million, respectively. This represents the amount tested.

The audit covered project activities from September 23, 2009, through December 31, 2012. We
reviewed applicable laws and regulations as well as USAID policies and procedures pertaining
to the project, including ADS 200, 201, 202, 203, 204, 253, and 302 and supplemental
guidance. The audit relied on the following sources of evidence: the contract; interviews with
USAID/El Salvador staff, RTI staff, subimplementing partner staff, and beneficiaries; and
documentation maintained at the mission and at RTI’s main office in San Salvador. The audit
team conducted fieldwork in El Salvador from January 11 through February 22, 2013, including
visits to 10 of the 50 municipalities and 2 of the 4 municipal associations.

Methodology
To answer the audit objective, we conducted interviews and site visits, and evaluated the
mission’s management and oversight of the project, the performance of implementing partners,
and the effectiveness of project activities. We met with officials from USAID/El Salvador’s
economic growth and strategic development offices, RTI, and subimplementing partners. We
also interviewed beneficiaries of the project, officials from the El Salvadoran Government, and
members of the private sector.

Through these interviews and review of project documentation, the audit team obtained an
understanding of: (1) the project’s goals, (2) how performance indicators, targets, and baseline
data were established to measure progress, (3) how the mission ensures the quality of the data


                                                                                             10
                                                                                         Appendix I


reported by the implementing partner, (4) how the mission monitors project activities, and
(5) whether the mission is aware of any allegations of fraud or other potential illegal acts or
noncompliance with laws, regulations, and agreement terms.

In addition, we performed the following audit tests:

	 Reviewed and tested the performance indicators, targets, and baselines to determine their
   appropriateness and document progress.

	 Reviewed and tested the procedures established by the mission to monitor and ensure the
   quality of RTI’s work.

	 Documented and tested compliance with requirements for contract documentation, gender
   analysis, human trafficking, sustainability, branding and marking, and environmental
   compliance.

To verify the status of activities completed during the project’s implementation from
September 2009 through December 31, 2012, we examined documentation maintained at RTI’s
office in San Salvador that supported the reported results. In addition, we judgmentally selected
10 of the 50 municipalities and 2 of the 4 municipal associations receiving USAID-funded
assistance to perform site visits. Sample selection was based on an analysis of factors including
the number of objectives relevant to the site and its diversity of activities. We conducted field
visits to validate reported results to the extent possible. Since the testing and the site selections
were based on judgmental samples, the results and conclusions related to the analysis were
limited to the items and areas tested, and they cannot be projected to the entire population. We
believe our substantive testing was sufficient to support the audit’s findings.




                                                                                                  11
                                                                                       Appendix II



MANAGEMENT COMMENTS 



                                      MEMORANDUM

To:           Jon Chasson, Regional Inspector General/San Salvador
From:         William K. Elderbaum, Acting Mission Director, USAID/El Salvador /s/
Date:         April 19, 2013
Subject:      Audit of USAID/El Salvador’s Municipal Competitiveness Project
              (Report Number 1-519-13-00X-P) March 15, 2013


Thank you for the opportunity to provide comments on the draft report of the audit of USAID/El
Salvador’s Municipal Competitiveness Project (MCP). USAID/El Salvador appreciates the
intensive effort by the audit team and the constructive recommendations. In response to these
recommendations, please find comments, corrective action plan, and target completion dates.

Recommendation 1. “We recommend that USAID/El Salvador document steps taken to
develop a performance indicator that measures whether the Municipal Competitiveness
Project is making progress towards promoting investment and trade.”

USAID/El Salvador agrees that development of a performance indicator that measures the
MCP’s progress towards promoting investment and trade is important. Since project inception,
USAID/El Salvador has assessed available statistical data to develop an indicator that would
measure whether the MCP is making progress towards increasing investment. The efforts
included consultations with MCP staff, including former Vice Minister of Economy in charge of
developing and gathering national economic performance data, and an outstanding researcher
and expert in statistics from Escuela Superior de Economía y Negocios (ESEN), MCP
subcontractor. On February 26, 2013, USAID/El Salvador again convened representatives of
MCP and ESEN to brainstorm the development of the indicator. In that meeting, USAID/El
Salvador requested Research Triangle Institute, Inc. (RTI) and ESEN to work together in a final
attempt to develop the indicator. On April 5, 2013, USAID/El Salvador met with
representatives of RTI and ESEN and discussed the result of the research. This result was
presented to USAID/El Salvador on April 12, 2013 (See Attachment No.1). RTI concluded that
“measuring investment in MCP municipalities can not be reasonably employed to determine the
impact of the project in this area (investment).”

As a result of this multi-month effort, the Mission determines that (1) there are no appropriate
data source(s) available as a performance indicator, (2) developing a source of data is not

                                                                                                   12
                                                                                         Appendix II


possible within the project resources, and, (3) it would be difficult to make the appropriate
attribution since results in these areas are influenced by many variables not all of which are
included in the scope of the project.

Therefore, since the MCP is scheduled to end March 31, 2014, the USAID/El Salvador considers
that it is no longer an effective use of limited project resources to continue searching for a
statistical data source that would be practical, timely, and attributable to the project. USAID/El
Salvador anticipates that the lack of a performance indicator that measures progress towards
promoting investment and trade will not detract from the project objective of increasing
competitiveness by strengthening municipal administrative and service delivery capacity.
Relevant performance indicators are being and will continue to be used and reported by the
MCP.

Based on the actions taken in the line with the recommendation, USAID/El Salvador requests
that the recommendation be closed upon issuance of the audit report.

Recommendation 2. “We recommend that USAID/El Salvador establish a process to
differentiate the new firms and jobs registered from those that have been operating informally
and collect additional data that would more accurately measure economic growth and
employment directly resulting from the Municipal Competitiveness Project.”

USAID/El Salvador agrees with this recommendation. The MCP Monitoring and Evaluation
Plan will be revised to differentiate the new firms and new jobs from those that have been
operating informally. This will be done by defining what constitutes “new firms and new jobs”
and disaggregating the current indicator to collect and report on the differentiated data.

With respect to the collection of additional data, USAID/El Salvador will instruct the
Implementing Partner to add a question to the data sheets used by the one-stop windows in the
municipalities to document if the firm is registering as a result of the new simplified registration
process.

Target completion date for these actions is June 30, 2013.

Recommendation 3. “We recommend that USAID/El Salvador prepare a schedule and
conduct regular site visits to the participating municipalities over the remaining contract
period and document the site visits in accordance with Mission Order 750.”

USAID/El Salvador agrees with this recommendation and will prepare a schedule and conduct
regular site visits to participating municipalities over the remaining contract period and
document the site visits in accordance with Mission Order 750. The schedule will be prepared
by June 30, 2013. The site visits conducted by that date, will be documented and will constitute
the basis for requesting closure of the recommendation.

Recommendation 4. “We recommend that USAID/El Salvador obtain access to the Training
Results and Information Network and properly monitor and report on in-country training



                                                                                                  13
                                                                                       Appendix II


programs and participants in accordance with USAID’s Automated Directives System 253 and
Mission Order 745.”

USAID/El Salvador agrees with this recommendation and will revise Mission Order No. 745 to
clarify roles and responsibilities within the Mission to monitor and report on in-country training
programs and participants. Once the Mission Order is revised, USAID/El Salvador will organize
training for AOR/CORs, to ensure uniform understanding and application of the requirements.
The target completion date for this recommendation is August 15, 2013.

Recommendation 5. “We recommend that USAID/El Salvador obtain from the implementing
partner the baseline assessment of business ownership and the gender integration plan and
follow through with the actions presented in the Gender Assessment Analysis.”

USAID/El Salvador agrees with this recommendation and will obtain from the Implementing
Partner the baseline assessment for 2011, which is the base year for this assessment. The
revised Gender Integration Plan was received from the Implementing Partner on April 11, 2013
(Attachment No. 2). USAID/El Salvador will monitor the implementation of the Gender
Assessment Analysis through quarterly reports presented by the Implementing Partner. Target
completion date for these actions is November 30, 2013.

Recommendation 6. “We recommend that USAID/El Salvador amend the contract with the
main implementing partner to include the environmental compliance language that will make
the Environmental Mitigation Plan mandatory if its activating conditions are met.”

USAID/El Salvador agrees with this recommendation and will amend the MCP contract to
include environmental compliance language to make the Environmental Mitigation Plan
mandatory. Target completion date for this action is May 31, 2013.




                                                                                                14
U.S. Agency for International Development 

       Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

            Tel: 202-712-1150 

            Fax: 202-216-3047 

           http://oig.usaid.gov
